     Department of Health and Human Services
              OFFICE OF
        INSPECTOR   GENERAL
                                            .




            YOUTH AND ALCOHOL: 

             A NATIONAL SURVEY 

DRINKING HABITS, ACCESS, ATTITUDES, AND KNOWLEDGE 





                      Richard P. Kusserow
                      INSPECTOR GENERAL

                          OEI-09-91-00652
                        OFFICE OF INSPECTOR GENERAL
The mission of the Office of Inspector General (OIG), as mandated by Public Law 95452. as
amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This statutory
mission is carried out through a nationwide network of audits, investigations, and inspections
conducted by three OIG operating components: the Office of Audit Services,the Office of
Investigations, and the Office of Evaluation and Inspections. The OIG also informs the Secretary of
HHS of program and management problems and recommends courses to correct them.

                            OFFICE OF AUDIT SERVICES
The OIG’s Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessmentsof HHS programs and
operations in order to reduce waste, abuse, and mismanagement and to promote economy and
efficiency throughout the Department.

                            OFFICE OF INVESTIGATIONS
The OIG’s Office of Investigations (01) conducts criminal, civil, and administrative investigations of
allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment by
providers. The investigative efforts of 01 lead to criminal convictions, administrative sanctions, or
civil money penalties. The 01 also overseesState Medicaid fraud control units which investigate and
prosecute fraud and patient abuse in the Medicaid program.

               OFFICE OF EVALUATION                      AND INSPECI’IONS
The OIG’s Office of Evaluation and Inspections (OEI) conducts short-term management and program
evaluations (called inspections) that focus on issuesof concern to the Department, the Congress, and
the public. The findings and recommendations contained in these inspection reports generate rapid,
accurate, and up-to-date information on the efficiency, vulnerability, and effectivenessof departmental
programs.

This report was prepared under the direction of Kaye D. Kidwell, Regional Inspector General, and
Paul A. Gottlober, Deputy Regional Inspector General, Office of Evaluation and Inspections, Region
IX. Participating in this project were:

San Francisco                                    New York                         Chicago
Deborah Harvey, Project Leader 
                 Jack Molnar                      Thomas Komaniecki 

Brad Rollin, Lead Analyst 
                      Tim Nee                          Pamela May 

Elizabeth Bell 
                                 Tracey Rennie                    Ann O’Connor 

Kathy Dezotte 

Jennifer Mallen 
                                Philadelphia                     Dallas
Brian Pattison 
                                 Donna Millan                     Michelle Adams
Elaine Shelub 
                                  Nancy Molyneaux                  Pamela Smith

Headquarters                                                                      Atlanta
Wm. Mark Krushat, Mathematical Statistician                                       Josiah Townsel
Barbara Tedesco, Mathematical Statistician
Maruta Zitans, Program Specialist
             EXECUTIVE                          SUMMARY
PURPOSE

This inspection surveyed junior and senior high school (7th through 12 grade)
students to determine how they obtain, view, and consume alcohol.

BACKGROUND

In response to public health concerns and the adverse health consequences of
alcohol abuse, Surgeon General Antonia Novello requested that the Office of
Inspector General (OIG) survey youth to determine their views and practices
regarding alcohol use. These concerns mirror one of Department of Health and
Human Services (HHS) Secretary Louis Sullivan’s goals which is to reduce the
prevalence of alcohol problems among children and youth. The Surgeon General is
particularly concerned about the drinking, habits of youth, especially the nation’s
20.7 million 7th through 12th graders. This report is one in a series prepared by the
OIG related to youth and alcohol. It describes survey findings relating to youth
perceptions, knowledge, opinions, and drinking habits and is based on structured
interviews conducted with a random national sample of junior and senior high school
students.

FIN-DINGS

      Fij@one percent of junior and senior high school studenfi have had at least one
      drink within the past year and 8 milEon studenr~ drink weekly.

      Junior and senior high school students drink 35 percent of all wine coolers sold in
      the United States and I.1 billion cans of beer each year.

      More than 5 million students have binge    3 million within the last month;
      454,ooO binge at least once a week

      More than 3 million studen& drink alone, more than 4 million drink when they
      are upset, and less than 3 million drink because they are bored

      Studen& lack essential knowledge about alcohol and its @ec&.

      Nine million students get their information about alcohol from unreliable sources.

      Seven mill&a students are able to walk into a store and buy alcohoL

      Students accept rides from friend who have been drinking.



                                            i
b	   Parents, jiiends, and alcoholic beverage advetiements   injknce   students’
     attitdes about alcohoL

RECOMMENDATIONS

b	   The Surgeon General should consult with public and private agencies to develop,
     improve, and promote educational pmgramr which would increase student
     awareness of alcoholic beveragesand their @et%.

b	   The Surgeon General should collabomte with the appropriate public and private
     agencies to reduce the appeal of alcoholic bevemge advert-king to youth.

b	   The Surgeon Geneml shouki emphasize the need for law enforcement and State
     alcoholic bevemge control agencies to prevent youth jium illegally pudasing
     alcohoL




                                          ii
                      TABLE                   OF CONTENTS
EXECUTIVESUMMARY

INTRODUCTION              . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


FINDINGS         . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3


Fifty-one percent of junior and senior high school students have had 

at least one drink within the past year. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3 


Junior and senior high school students drink 35 percent of all wine coolers 

sold in the United States and 1.1 billion cans of beer each year. . . . . s . . . . . . . . 4 


More than 5 million students have binged; 3 million within the last month; 

454,000 binge at least once a week. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6 


More than 3 million students drink alone, more than 4 million drink 

when they are upset, and less than 3 million drink because they are bored.                               . . . . . 7


Students lack essential knowledge about alcohol and its effects. . . . . . . .. s . . . . , . 8 


Nine million students get their information about alcohol 

from unreliable sources. . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. . . . . . . . . . e . 10 


Seven million students are able to walk into a store and buy alcohol.                            . . . . . . . . 11 


Students accept rides from friends who have been drinking.                          . . . . . . . . . . . . . . . 12 


Parents, friends, and alcoholic beverage advertisements influence 

students’ attitudes about alcohol. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13 


RECOMMENDATIONS                   . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15 


APPENDICES

Appendix A: Methodology               . . . . . . . . . . . . . . . . . . : . . . . . . . . . . . . . . . . . . A-l

Appendix B: Projected Universe by Grade and Gender                            . . . . , . , . . . . . . . . . . B-l

Appendix C: Selected Bibliography                 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . C-l
                            INTRODUCTION
PURPOSE

This inspection surveyed junior and senior high (7th through 12th grade) students to
determine how they obtain, view, and consume alcohol.

BACKGROUND
        .
In response to public health concerns and the adverse health consequences of
alcohol abuse, Surgeon General Antonia Novello requested that the Office of
Inspector General (OIG) survey youth to determine their views and practices
regarding alcohol use. These concerns mirror one of Department of Health and
Human Services (HHS) Secretary Louis Sullivan’s goals which is to reduce the
prevalence of alcohol problems among children and youth. The Surgeon General is
particularly concerned about the drinking habits of youth, especially the nation’s
20.7 million 7th through 12th graders. This report is one in a series prepared by the
OIG related to youth and alcohol. It describes survey findings concerning youth
perceptions, knowledge, opinions, and drinking habits.

Youth Consumption and Beliefs About Alcohol

According to the U.S. Department of Education, 20.7 million students attend
7th through 12th grade. Previous national surveys have disclosed that most
adolescents have tried alcohol and that many drink frequently. Among high school
seniors in the class of 1990, 89.5 percent had used alcohol at least once, and
32.2 percent had experienced a “binge” of 5 or more drinks in a row within the past
2 weeks.’ While recent surveys of high school students indicate an overall drop in
drug use, alcohol use continues at a high rate.

According to another survey, adolescents have started drinking at earlier ages since
1978.* Although youth begin using alcohol at earlier ages, their information
regarding its contents and effects may be faulty. A recent survey of 4th, 5th, and
6th graders found that only 21 percent consider wine coolers a drug, while
50 percent believe beer, wine, and liquor are drugs.3



    ‘University of Michigan, Institute for Social Research, “Monitoring the Future: A Continuing
Study of the Lifestyles and Values of Youth,” January 1991.

    ‘National Clearinghouse on Alcohol and Drug Issues (NCADI), “Alcohol and Youth,” NCADI
Alcohol Topics Fact Sheet, January 1987, p. 1.

    3National Families in Action, “Wine Coolers Becoming Gateway Drug,” Drug Abuse Update,
no. 28, March 1989, p. 12.
Youth Access to Alcohol 


Youth obtain alcohol from a variety of social and commercial sources. Although the 

minimum age to buy alcohol in all States is 21, studies show that youth are 

frequently able to obtain alcohol with little or no problem. While youth frequently 

find alcohol at parties without parental supervision and at friends’ homes, they also 

obtain alcohol from retail outlets in a variety of ways. Youth may (1) have an older 

friend purchase alcohol, (2) buy from stores that are known to sell to minors, and/or 

(3) solicit a stranger to purchase alcohol. 4 In some areas, youth may simply purchase 

alcohol without being challenged by the vendor. According to a recent study, 

underage males were able to buy beer in 97 of 100 District of Columbia stores.5 


METHODOLOGY 


To establish the universe of 7th through 12th grade students, we compiled data on 

all secondary (junior and senior high schools), kindergarten through 8th grade (K-8), 

and kindergarten through 12th grade (K-12) schools in the United States. We 

weighted the States based upon the total number of schools. The eight randomly 

selected States were: California, Colorado, Florida, Illinois, Louisiana, New York, 

Ohio, and Pennsylvania. We obtained data on all target schools in the eight States 

from the U.S. Department of Education. After weighting each county in each State 

by the number of students, we randomly selected two counties in each State. We 

randomly selected two schools from each county list, without weighting, for a total 

sample of 32 schools. 


During March and April 1991, we conducted structured interviews with a random 

national sample of 956 students in the 7th through 12th grades. We asked all 

students about their opinions and knowledge of alcohol. We asked about the 

personal experiences of students who had drunk at least one full alcoholic beverage 

in the past year. Throughout this report, we refer to these students as “students who 

drink.” Of the students who never drank alcohol or had not had a drink during the 

past year, we asked about their perceptions and observations of their classmates who 

drink. We refer to these students as “non-drinkers.” Appendix A contains a full 

description of the sample selection and methodology. 





   ‘Friedner D. Wittman, Ph.D., J.W. Grube, and P. Shane, “Survey of Alcohol and Other Drug
Experiences Among Castro Valley High School Students in 1987 and 1990,” September 1, 1990, p. 2.

   %hristine Russell, “It’s Easy for Underage Men to Buy Beer in the District,” Washineton Post
Health, March 19, 1991, p. 5.


                                                2
                                 FINDINGS

                   STATtSTIU          HIGHUGH73:               WHO DRLMLS?


                7TH THROUGH 12TH GRADE STUDENTS NATlONWIDE
                                20.7 MILLJON




       STUDENTS WHO BUY                       14.4   MILLION   DRINK WHEN UPSET
       ALCOHOL IN STORES
                                              12.7 MlLLlON     DRINK WHEN BORED
            6.9 MILLION

                             BINGERS
                   HAVE HAD 5 OR MORE DRINKS IN A ROW

                      5.4 MILLION     HAVEBINGED AT LEAST ONCE
                          1 3 MILLION     HAVE BINGED IN THE PAST MONTH

                                    454,000     BINGE AT LEAST ONCE A WEEK




FIFTY-ONE PERCENT OF JUNIOR AND SENIOR HIGH SCHOOL STUDENTS
HAVEHADATLEASTONEDRINKWlTHIN        THEPASTYEAR.

According to our survey, 68 percent of all students have drunk alcohol at least once,
and 51.2 percent (10.6 million) have had at least one drink within the past year.
The average student who drinks is 16 years old and in the 10th grade. Of the
students who drink, 53.8 percent are male, and 46.2 percent are female. See
appendix B for gender and school grade breakdowns.




                                                     3

We found that students were 13 years old when they took their first drink. This is
close to other national surveys that report 12.3 years as an average age.6

                   THE hUJORL?Y OF STUDENTS HAVE THEIR
                     FIRST DRINK IN TXEIR EARLY TEENS




                                                      NO ANSWER
                                                           1%




We found that eight million, or 38.6 percent of ail students, drink weekly. Three
million students reported that they do not usually drink each week.

JUNIOR AND SENIOR HIGH SCHOOL STUDENTS DRINK 35 PERCENT OF
ALLwINEcooLERssoLDINTHEu-NITED      STATES AND 1.1 BILLION
CANS OF BEER EACH YEAR.

We asked students about four types of alcoholic beverages-beer (including all malt
beverages), wine coolers, wine, and liquor (including mixed drinks that contain
alcohol such as rum or vodka). Some students drink more than one type of
alcoholic beverage. We project that:

b	     9.2 mill.ion students have drunk beer. Of this group, 6 million drink between
       0.12 and 33 beers weekly. In some schools, students mentioned that they



     6U.S. Department of Health and Human Services,PHS-ADAMHA-OSAP, “Alcohol Use Lunong
Children and Adolescents,” Statistical Bulletin, October-December 1987, p. 2

                                           4
       drink 40-ounce bottles of malt liquor instead of 12-ounce cans or bottles of
       beer.

c	     8.9 million students have drunk wine coolers. Of this group, 4 million drink
       between 0.16 and 12 wine coolers weekly.

b	     6.2 million students have drunk wine. Of this group, 1.4 million drink
       between 0.25 and 24 glasses of wine weekly.

b	     7.2 million students have drunk liquor.     Of this group, 3.6 million drink
       between 0.25 and 24 drinks weekly.

The average weekly consumption for each alcoholic beverage type is shown below.

            KHILE     KUVE COOLERS ARE THE “DRINK OF CHOICE,”
                         STUDENlX DRli’X MORE BEER




                          2.7




Wine coolers are the students’ Think of choice.”

When asked about their favorite alcoholic drink, 42.1 percent of students who drink
chose wine coolers. This translates to 4.5 million students who drink nationally. In
addition, 51 percent of all students say that wine coolers are the favorite drink


                                             5

among their friends and classmates. Students choose wine coolers because they taste
good, are fruity, do not have a strong taste of alcohol, and they think wine coolers
do not contain much alcohol.

Junior and senior high school students d&k 35 penxnt of all wine coolers sold in the
United States.

According to estimated sales figures ‘, 88.8 million gallons of wine coolers were sold
in the United States in 1989. Based on an average consumption of 6.4 million
bottles weekly (1Zounce size), we estimate that students drink 31.2 million gallons of
wine coolers annually. By projecting the total volume of wine coolers students
reported drinking, we estimate that students drink 35 percent of the wine coolers
sold in this country.

Junior and senior high school students drink I.1 bill&      beers each-year.

Students drink less than 2 percent of the 62 billion bottles and cans8 of beer
consumed annually in the United States. While this percentage appears small, it is
staggering when one considers that minors illegally consume more than a billion
beers each year.

Students who chose beer as their favorite alcoholic beverage said it tastes good, is
easy to get, is cheap, and does not get you drunk as fast as other alcoholic
beverages. Several students said that beer is always around or available at parties.

MORE THAN 5 iILLION   STUDENTS HAVE BINGED, 3 MILLION                              WITHIN
THE LAST MONTH, 454,000 BINGE AT LEAST ONCE A WEEK.

Researchers define a ?binge” as drinking five or more drinks in a row. O.ur
projections show that 5.4 million students have “binged” at least once. Almost
55 percent of these had binged at least once in the month before the survey. For
this group, the number of binges ranged from 1 to 20 per month.

The demographics for students who binge mirror the demographics for all students
who drink. Fifty-nine percent are male; 41 percent female. The average binger is a
16-year-old male in the 10th grade. He was 12 years old when he took his first
drink, slightly less than the average 13 years for all students who drink. He
consumes six drinks each week.



    ‘The Wine Institute, Table of Commercially Produced Wine Entering Distribution Channels in
the United States, by Areas Where Produced, 1985-1989.

    81989 data, State reports compiled by Beer Institute and U.S. Department of Commerce, Bureau
of Census.


                                                6
There is a smaller group of students who binge almost every week--454,000 students
average 15 drinks weekly. Their average age is 16.6 years, and they are in the
11th grade. Eighty-seven percent are males, and 13 percent are females.

   BINGERS DRUKK MORE BEER KliWV OTRTERALCOHOLIC                    BEK?ZRAGES




            lo

              8
              6
              4
              2
              0                                                       LIQUOR
                       BEER         COOLERS           WINE


                                         phlks of choice
                 THOSE WHO BINGED
                   IN LAST MONTH


         II      WEEKLY SINGERS




MORE THAN 3 MILLION STUDENTS DEW-K ALONE, MORE THAN
~MIILIOND~~~~WSET,ANDLESSTHAN~~ON
DFUNK BECAUSE THEY ARE BORED.

Scientific research has shown that alcohol is a fast-acting drug. The early phases of
drug action tend to have a positive effect on mood and general arousal level. Many
students use alcohol as a tool to help them cope with certain feelings and situations.
Of the 10.6 million students who drink, (1) 31 percent drink alone, (2) 41 percent
drink when they are upset because it makes them feel better, (3) 25 percent drink
because they are bored, and (4) 25 percent drink to feel high.




                                              7

        STUDENT DRINKING        PA7TERNiS ARE REASON FOR CONCERN


      DRINKING PA-i-lERNS




                         0          1           2         3             4             5
                                           MILLIONS OF STUDENTS


We compared these responses to a smaller group of students who binge. We found
that students who binge are more likely to drink alcohol to relax, change their mood,
or cope with emotional distress. Of the 5.4 million students who binge,
(1) 39 percent drink alone, (2) 58 percent drink when they are upset, (3) 30 percent
drink when they are bored, and (4) 37 percent drink to feel high.

STUDENTS     LACK ESSENTIAL        KNOWLEDGE        ABOUT     ALCOHOL         AND ITS
EFFECTS.

Nationwide, 5.6 rniilibn students are umwe of the legal age to puhase       alcohoL

The minimum age to purchase alcohol in all States is 21. Nevertheless, a projected
1.6 million students do not even know such a law exists. Many students know about
the law, but do not know the minimum age is 21. Their guesses ranged from 14 to
24 years.

In Louisiana, only 46 percent of the students we interviewed knew the correct
minimum age. The confusion among these students may be attributed to the State
law which prohibits persons under 21 from purchasing, possessing, or consuming


                                           8

alcohol, yet does not prohibit restaurants and bars from selling alcohol to persons
over 18. Therefore, someone between 18 and 21 who drinks in a restaurant has
committed a violation, but the restaurant or bartender has not. A State Alcohol
Beverage Commission official said they are “not prosecuting the underage drinker
because the law is superficial. When servers realize this, they are not hesitant to sell
to those under 21.‘19

A third of all studem    do not undemtand     the intoxikating   fleets   of alcohoL

We asked students about alcohol’s intoxicating effects and whether different
stimulants will counteract these effects. More than 2.6 million students do not know
a person can die from an overdose of alcohol. More than one-third of students
believe that drinking coffee, getting some fresh air, or taking a cold shower will
“sober you up.”

In addition, a projected 259,000 students think that wine coolers or beer cannot get
you drunk, cannot make you sick, or cannot do as much harm as other beverages.
Students like wine coolers because they are “like soda--I don’t consider them
alcohol,” and “they...don’t get you drunk.”

Students do not know the relative strengths of different alcoholic beverages.

Almost 80 percent of the students do not know that one shot of whiskey has the
same amount of alcohol as a 1Zounce can of beer. Similarly, 55 percent do not
know that a 5-ounce glass of wine and a 12-ounce can of beer have the same
amount of alcohol. One out of three students do not know that all wine coolers
contain alcohol.

The chart on the next page details student responses to our questions.




    9May 1, 1991, telephone conversation with a State Alcohol Beverage Commission official.


                                                 9
                     STUDENTKNOKLEDGE                            VARIES GREATLY 



                            ACTUAL QUESTION

            Mothers who drink alcohol during pregnancy have
                                                                          True       98
            a higher risk of having babies with birth defects.

            Alcohol slows the activity of the brain.                      True       96

            A teenager   cannot become an alcoholic.                      False      96

            Alcohol improves   coordination   and reflexes.               False      93

            A person can die from an overdose      of alcohol.            True       87

            Many wine coolers actually contain no alcohol.                False      68

            Drinking coffee, getting some fresh air, or taking a
            cold shower can help a person ‘sober up’ more quickly.        False      54

            One can of beer (12 ounces) has more alcohol
                                                                          False      45
            than a glass of wine (5 ounces).
            One shot of whiskey (1-l/2 ounces) has twice
            as much alcohol as a can of beer (12 ounces).



NINE MILLION STUDENTS GET THEIR INFORMATION                                       ABOUT ALCOHOL
FROM UNRELIABLE SOURCES.

More than 4 million students learn about alcohol from their friends, whose
information may or may not be accurate. Similarly, more than 5 million students say
that they “just picked up” what they know by themselves or that nobody taught them.
A greater proportion of students who drink than non-drinkers learn about alcohol
through unreliable sources. When asked who taught him about alcohol, one student
explained, “Nobody. A lot of teenagers who drink it don’t know what it is.”

Students also learn about alcohol from their parents, school, and the media. The
chart on the next page illustrates students’ information sources.




                                                       10 

            STUDENTS ALSO LEARN ABOUTALKOHOL                       FROM FAMILY,
                         SCHOOL, AND 7X-E iUEDL4

       70 -
                                                                                 59.2
       60




                 FAMILY          SCHOOL                   MEDIA     FRIENDS/SELF/NOBODY
                                     Sources of Information
                                  NON-DRINKERS                STUDENTS WHO DRINK
                                  n=10,111,637       cl       n=10,616,760



As shown in the graph, non-drinkers are much more likely to learn about alcohol
from their family and school than are students who drink. Non-drinkers are also
slightly more likely to cite the media as a source of their knowledge.

More than a quarter of all students cited school, a class, teachers, or a specific
school program as teaching them about alcohol. For example, a few students
mentioned the Drug Abuse Resistance Education (D.A.R.E.) program. A
coordinated effort between local police and schools, D.A.R.E. sends uniformed police
officers into the schools to teach 5th- and 6th-grade students about alcohol and other
drugs.

SEVEN MILLION       STIJ?EN’T’S ARE ABLE TO WALK INTO A STORE AN-D
BUY ALCOHOL

Studen&scan buy alcohol in stores.

Almost two-thirds or 6.9 million of the students who drink buy their own beverages.
Despite the minimum age laws, students as young as 12 or 13 said they can buy
alcoholic beverages in a store. As students get older, a larger proportion buy alcohol


                                              11 

directly. Students said, “Sometimes they [vendors] do not even ask your age,” and “I
could go out right now and buy some.”

Students may (1) use fake identification, (2) buy from stores known to sell to young
people or stores with young clerks, or (3) just go in and buy alcohol. Forty-five
percent of all students know someone who has used a fake identification to buy
alcohol. A small group, 4.5 percent, admit they steal alcohol from stores. Unable to
purchase alcohol from stores, students in Philadelphia, Pennsylvania use a black
market source. Students mentioned that houses, called “speakeasies,” sell alcohol to
underage students, and they offer some alcoholic beverages, like Cisco, which are not
available elsewhere in the State.

Friends, parties, and stores are the main sources for alcohoL

Students who drink usually obtain alcohol from their friends. Their grade in school
influences where and how they get alcohol. While 88 percent of 12th graders get
alcohol through friends, only 49 percent of 7th graders do. The younger students
obtain alcohol from their parents with or without their parents’ knowledge. Almost
three-fourths of the 7th graders obtain alcohol from their parents, while only a
quarter of the 12th graders do.

Almost 65 percent of all students--students who drink and non-drinkers alike--have
been to parties where alcohol is served. The number of students attending parties
increases with each grade level. More than 79 percent of high school students
(9th through 12th grade) have been to parties with alcohol. When asked where they
obtain alcohol, 88 percent of the students who drink mentioned parties.

STUDENTS       ACCEPT RIDES FROM FRIENDS WHO HAVE BEEN DRINKING.

In 1989, almost 2,800 students between 15 to 19 years old died in alcohol-related
traffic accidents. Forty-five percent of the traffic accidents among this age group are
alcohol related, yet students say it is not okay to drink and drive.iO

Even though 92 percent of all students in our survey said a person should never
drink and drive, almost a third have accepted a ride from a driver who had been
drinking. This translates to 6.8 million students who are placing their lives in danger.
Almost half of the students who drink have been a passenger in a car that a friend
drove after drinking.




    lw.S. Department of Transportation, National Highway Traffic Safety Administration, Fatal
Accident Reporting &stem: .1989Annual Report, Pub. No. DOTHS807693, March 1991.


                                                12
PARENTS, FRIENDS, AND ALCOHOLIC BEVERAGE ALNERTISEMENTS
INFLUENCE STUDENTS’ ATITIVD ES ABOUT ALCOHOL

Parenrr injluence students’ attituks about alcohoL

Almost two-thirds of all students say their parents do not approve of underage
drinking or would punish them if they drank. Some extreme examples of punishment
that students gave are, “I would have a grave, ” “I would be grounded until I was 42,”
and ‘They would beat my behind!”

Many parents are more lenient. Thirty-five percent of the students who drink say
their parents tolerate their drinking under certain conditions. These conditions
typically limit the amount, frequency, or location of the student’s drinking. Examples
include, ‘They tell me not to go overboard and not to get drunk” and “I can have it
with my parents.” Almost 15 percent of the students who drink reported that their
parents trust them or do not say or do anything about their drinking.

Friends injkence student by prvviding both alcohol and occasions to drink

Nationwide, 10.1 million students drink with their friends. The main reasons students
gave for drinking involve their friends:

b       Almost 8.7 million students drink to have fun.

b	      Less than 5.5 million students, or half of those who drink, do so because their
        friends drink.

b       More than 6 million drink to be social.

At one of the surveyed schools, the March cover story from the student newspaper
discussed student views on drinking beer. The article listed reasons why beer is so
popular, including “it makes even the most shy people witty and clever at parties.“*’
Some students expressed concerns that the most popular weekend activity is drinking.
One student was disappointed that “several of my friends can’t be social unless they
are drunk (or so they say).“12

Advertiiements for alcoholic bevemges influence students’ perceptions about alcohoL

Thirty-nine percent of all students named something they like about advertisements
for alcoholic beverages. Their likes vary widely. The most common responses were


     “D. Roberts, “True Love, or Just an Alcoholic?” Complex Review, March 1991. p. 6.

     12B. Linas, “Social Drinking? Complex Review, March 1991, p. 7.

                                                 13
that the advertisements spotlight attractive people and make drinking look like fun.
We asked students if anything appealed to them about the advertisements. Student
responses included:

b     ‘They are very convincing. They make it look very glamorous.”

b     ‘The way they make life look like fun.”

t     ‘They look exciting and fun. The message is:. It is all right to drink, not that
      it is bad.”

b     “Some of them are funny, and some have sexy women.”

b     ‘They make you look like you’re cool and accepted.”

b     “Girls in the ads are skinny, and I want to be like that.”

t	    ‘The slogan ‘The Right Beer Now’ makes you think ‘Is now a good time to
      drink?“’

Virtually all students have seen advertisements for alcoholic beverages. To find out
if students were able to associate a spokesperson, star, or symbol with a particular
brand of beer, we asked the students if Spuds MacKenzie is the mascot for Coors
Light beer. More than half knew that “Spuds” was not Coors’ mascot. Because the
majority knew enough to correctly link the symbol and the product, advertisements
may be a stronger influence on students than they realize.




                                           14 

                   RECOMMENDATIONS
THE SURGEON GENERAL SHOULD CONSULT WITH PUBLIC AND 

PRIVATE AGENCIES TO DEVELOP, IMPROVE, AND PROMOTE 

EDUCATIONAL  PROGRAMS WHICH WOULD INCREASE STUDENT 

AWARENESS OF ALCOHOLIC BEVERAGES AND THEIR EFFECI’S. 


This recommendation is similar to one that appears in the OIG report entitled 

“Youth and Alcohol: A National Survey--Do They Know What They Are Drinking?” 

In addition to HHS, agencies should include the U.S. Departments of Education, 

Transportation, and Justice, the alcohol beverage industry, and public interest groups. 

The Surgeon General should ensure that alcohol education is developed and 

improved to include practical information about alcohol. Programs should emphasize 

information about (1) different alcoholic beverages and their relative strengths, 

(2) how alcohol affects the body, (3) how to cope with problems, and (4) laws 

regarding youth and alcohol. 


THE SURGEON GENERAL SHOULD COLLABORATE    WITH THE 

APPROPRIATE PUBLIC AND PRIVATE AGENCIES TO REDUCE THE 

APPEAL OF ALCOHOLIC BEVERAGE ADVERTISING  TO YOUTH. 


The Surgeon General should initiate a collective effort to eliminate images that 

glamorize drinking or link drinking to fun, recreation, or sex appeal. We found that 

youth most frequently pay attention to this type of advertising which they may 

perceive as making drinking socially acceptable. The collective effort should include 

agencies such as the Bureau of Alcohol, Tobacco, and Firearms, the Federal Trade 

Commission, the National Association of Broadcasters, the American Association of 

Advertising Agencies, the alcohol industry, and public interest groups. 


THE SURGEON GENERAL SHOULD EMPHASIZE THE NEED FOR LAW 

ENFORCEMENT AND STATE ALCOHOLIC BEVERAGE CONTROL 

AGENCIES TO PREVENT YOUTH FROM ILLEGALLY PURCHASING 

ALCOHOL. 


The Surgeon General should consult the State Alcoholic Beverage Control (ABC) 

agencies to find ways to better deter youth from purchasing alcohol and vendors 

from selling to minors. The OIG will provide the Surgeon General with information 

about the ABC agencies and the State laws and enforcement in a subsequent report 

on youth and alcohol. 





                                           15 

                                  APPENDIX                   A
                                        METHODOLOGY

      Four-Stage Sampling Methodblogy

      At the first stage, a cluster of eight States out of the nation was selected at random,
      without replacement, with probability proportionate to size. That is, for this level,
      size, defined as the number of schools in each State, was used as the weighting
      factor for the selection of the eight States. The universe of schools was limited to
      secondary schools (junior high or senior high) and Kindergarten through 12th grade
      schools.

    . The second stage involved selecting a cluster of counties within each of the eight
      States. Two counties were selected from each sampled State for a total of
      16 counties. These counties were also selected with probability proportionate to size.
      However, the size for this stage was determined by the number of students in the
      county in grades seven through twelve.

      Once counties were selected, a simple random sample of schools within the county
      was chosen. Two schools per county were sampled for a total of 32 schools.

      The final stage of sampling was the selection of students in the schools. A sample of
      thirty students per school was desired. However, 42 were initially selected to allow
      for absentees and refusals. The schools were instructed to alphabetize a list of all
      students in grades 7 through 12. Then the total number of students on the list was
      divided by 42 and rounded to the nearest whole number (n). Students were then
      selected by counting every nth one on the list until the entire list was exhausted. In
      many cases, more than the required thirty students were available to participate.
      The schools were instructed to randomly subsample to obtain a final sample of 30.
      This final sample size was achieved in all but a few schools. However, in no school
      were less than 27 students interviewed. The total sample for this inspection was
      956 students.

      Weighting Rocedwe
.
      Since the sample was selected with four different stages and a different set of
      probabilities at each stage, weighting of the respondents was standardized through a
      five-step process based on sample size and the universe. Although the first two
      stages of selection employed probability proportionate to size, the measure of size
      differed between the two stages. In the first stage the measure of size was number
      of schools while the measure of size for the second stage was number of students.
      The third and fourth stages involved taking simple random samples of schools and
      then students. To provide a uniform unit of selection so that accurate weights could


                                                 A-l
be determined, the number of students, known at each of the four stages, was used
for purposes of weighting the sample.

Overall, there were 32 distinct weights used to project to the universe--l for each
school. These weights were applied to every student in the school and were
computed as follows:

(1) 	 In weighting from the students to the school, the population in the school was
       divided by the sample in the school. There were 32 different weighting
       factors for this phase.

(2) 	 The second weighting factor was determined by dividing the number of
       students in the county by the sum of students in the two schools that were
       chosen. There were 16 different weighting factors used in projecting to the
       county level.

(3) 	 In the third stage, the weight was computed by dividing the number of
       students in the State by the sum of students in the two counties that were
       chosen. There were 8 weighting factors (one for each State) at this stage.

(4) 	 For the final stage, the weight was calculated by taking the number of
       students in the universe and dividing by the number of students in all eight
       States combined, for one weighting factor to project to the universe.

(5) 	 The weight at each of these 4 stages was multiplied together to obtain the
       32 unique weighting factors.

Adju.rtments to Wtights

It was determined, subsequent to data collection, that the 956 students interviewed
were disproportionately distributed when compared to the estimated national
population.   Using data provided by the Department of Education, we determined
that the data needed to be reweighted to appropriately reflect this national
population. The table on the next page shows the distribution of the national
population and sample with respect to race and grade, including the adjusted
weights.




                                          A-2 

                 DISTF2IBUTION OF POPULATION AND SAMPLE 

                           WITH RESPECI- TO GRADE 


                                                 ADJUSTED
                             UNWEIGHTED          WEIGHTED
        GRADE                 SAMPLE              SAMPLE              POPULATTON

         7                      21.40%              12.90%               13.03%
         8                      27.10%              12.10%               12.04%
         9                      14.70%              23.20%               23.32%
        10                      12.70%              21.40%               20.96%
        11                      12.40%              17.10%               17.20%
        12                      11.50%              13.40%               13.42%

                 DISTRIBUTION   OF POPULATION AND SAMPLE
                            WITH RESPECT TO RACE 


                                                  ADJUSTED
                             UNWEIGHTED           WEIGHTED
        RACE                  SAMPLE               SAMPLE             POPULATION

        WHITE                   58.20%              70.20%               69.35%
        BLACK                   29.30%              15.40%               15.36%
        HISPANIC                 8.40%              10.50%               10.20%
        INDIAN                   0.20%               0.40%                1.04%
        ASIAN                    3.40%               3.40%                3.43%
        OTHER                    0.70%

As can be seen from the above two tables, there is a difference between the
unweighted sample and population distributions with respect to both race and grade.
Using a cross tabulation of race and grade, compiled for the population and the
sample, the adjusted weights were constructed. These adjustments were made based
on the proportions found in the sample compared with the population. For example,
since whites were under sampled and blacks were over sampled, the responses were
weighted more heavily for whites and less for blacks. This adjustment brought the
sample in line with the national population.

The differences between the adjusted proportions and the unweighted proportions in
the sample are mainly due to-the following:

(1) 	   In general, the sample selected proportionately   more 7th and 8th graders than
        are found in the population and,

(2) 	 The sample selected proportionately more non-white students than are present
        in the national population.

                                           A-3
Disczbon   Guides

We asked all students one or two screening questions:

(1) 	 EXCLUDING  CHILDHOOD SIPS THAT YOU MIGHT HAVE HAD
      FROM AN OLDER PERSON’S DRINK, HAVE YOU EVER HAD A
      GLASS OF BEER OR WINE, A WINE COOLER, OR A DRINK OF
      LIQUOR?

(2)   HAVE YOU HAD AT LEAST ONE DRINK IN THE PAST YEAR?

Students who answered “Yes” to both screening questions were asked questions about 

their personal experiences, knowledge, and attitudes about alcohol. Students who 

answered “No” to either of the screening questions were asked about their 

perceptions and observations concerning classmates who drink. 





                                         A-4 

                                  APPENDIX                  B

              PROJECI’ED UNTVERSE BY GRADE AND GENDER


Our sample is representative of the 20.7 million 7th through 12th grade students in
the United States. The data in this chart reflect a national projection of the students
we interviewed.




                                                                                    TOTAL
 1        GRADE   I

                      PERCENT   POPULATION    PERCENT   POPULATION        PERCENT      POPULATION



     7l-H                6.0      1,248,926      7.0      l&5,489           13.0            2,694,415


     8TH                 6.4      1,335,556      5.8      1,203,873         123             2,539,429


     9m                 10.3      2,139,895     127       2640,591          23.1            4,780,486


     1oTH               10.1      2102594       11.1      2,305,280         21.3            4,407,874


     1lTH                9.9      2,053,192      7.1      I ,475,387        17.0            3,528,579


     12I-H               7.1      1,479,801      6.2      1,289,655         13.4            2,769,456


     NOT STATED          0.0          8,350      0.0                  0      0.0                8,358


     TOTAL              50.0     10,368,322     50.0     10,360,275        100.0        20,728,597




                                               B-l
                           APPENDIX                  C
                        SELECTED BIBLIOGRAPHY


American Council on Alcoholism, Inc., “The Most Frequently Asked Questions About
      Teenage Drinking and Their Answers!” June 1990.
                                                                                       .
Bachman, J.G., and L.D. Johnston, “The Monitoring the Future Project: Designs and
     Procedures,” Occasional Paper 1, University of Michigan, Institute for Social
     Research, Ann Arbor, Michigan, 1978.

Chassin, L., C. Tetzloff, and M. Hershey, “Self-Image and Social-Image Factors in
      Adolescent Alcohol Use,“ Journal of Studies on Alcohol, v. 46, no. 1, 1985,
      pp. 39-47.

Cherry, Linda et al., ‘Too Young to Buy and Too Young to Sell: A Case for
       Raising the Age of Alcohol Sellers,” Horizon Services, Inc., 1989.

City of Irvine, California, Substance Abuse Task Force, Youth Alcohol Access
       Project, Irvine City Council, 1990.

Coate, D., and M. Grossman, “Effects of Alcoholic Beverage Prices and Legal
       Drinking Ages on Youth Alcohol Use,” Journal of Law and Economics, v. 31,
       1988, pp. 145-171.

Linas, B., “Social Drinking ?” Comolex Review, March 1991, p. 7.

Males, Mike, “Youth Behavior: Subcultural Effect or Mirror of Adult Behavior,”
       Journal of School Health, v. 60, 1990, pp. 505-508.

Malvin, J.H., and J.M. Moskowitz, “Anonymous and Identifiable Self-Reports of
       Adolescent Drug Attitudes, Intentions and Use,” Public Oninion Quarterly,
       v. 47, 1983, pp. 557-566.

Mosher, James F., “The Prohibition of Youthful Drinking: A Need for Reform,”
      Contemnorarv Drug Problems, v. 6; no. 3, 1987, pp. 397-436.

Moskowitz, J.M., “Alcohol and Drug Problems in Schools: Results of a National
      Survey of School Administrators, ” Journal of Studies on Alcohol, v. 49, 1988,
      pp. 299-305.




                                         C-l
National Clearinghouse on Alcohol and Drug Issues (NCADI), “Alcohol and Youth,”
       NCADI Alcohol Tonics Fact Sheet, January 1987, p. 1.

National Clearinghouse on Alcohol and Drug Issues (NCADI), “Alcohol Problems
       and Youth,” NCADI Alcohol Tonics Fact Sheet, January 1985, pp. 1-2.

National Families in Action, “Wine Coolers Becoming Gateway Drug,” Drug Abuse
       &date, no. 28, March 1989, p. 12.

1989 Data, State Reports Compiled by the Beer Institute and U.S. Department of
      Commerce, Bureau of Census.

Roberts, D., ‘True Love, or Just an Alcoholic. 3” Complex Review, March 1991, p. 6.

Russell, Christine, “It’s Easy for Underage Men to Buy Beer in the District,”
       Washington Post Health, March 19, 1991, p. 5.

Saffer, 	Henry, and M. Grossman, “Beer Taxes, the Legal Drinking Age, and Youth
        Motor Vehicle Fatalities,” Journal of Legal Studies, v. 16, 1987, pp. 351-374.

Skager, Rodney, et al., Biennial Statewide Survev of Drug and Alcohol Use Among
       California Students in Grades 7. 9, and 11: Report to the Attornev General,
       Winter 1989-90.

U.S. Department of Health and Human Services, PHS-ADAMHA-NIAAA,         Seventh
      Special Report to the U.S. Congress on Alcohol and Health, January 1990.

U.S. Department of Health and Human Services, PHS-ADAMHA-NIDA,      “Facts
      about Teenagers and Drug Abuse,” NIDA Cansules, no. 17, 1990.

U.S. Department of Health and Human Services, PHS-ADAMHA-NIDA,        “High
      School Senior Drug Use:  19751989,” NIDA  Caosules, no. 23, 1990.

U.S. Department of Health and Human Services, PHS-ADAMHA-NIDA,        “Highlights
      of National Adolescent School Health Survey: Drug and Alcohol Use,” NIDA
      Causules, no. 28, 1988.

U.S. Department of Health and Human Services, PHS-ADAMHA-NIDA,       “Highlights
      of National Household Survey on Drug Abuse: Population Estimates of
      Lifetime and Current Drug Use, 1990,” NIDA Capsules, 1990.

U.S. Department of Health and Human Setices, PHS-ADAMHA-OSAP,              “Alcohol
      Use Among Children and Adolescents, ” Statistical Bulletin, v. 68, no. 4,
      October/December 1987, pp. 2-12.


                                          c-2
U.S. Department of Health and Human Services, PHS, Office of the Surgeon
      General, Surgeon General’s Workshon on Drunk Driving: Background
      Papers, 1988.

U.S. Department of Transportation, National Highway Traffic Safety Administration,
      Fatal Accident Reoorting Svstem: 1989 Annual Report,
      Pub. No. DOTHS807693, March 1991.

University of Michigan, Institute for Social Research, “Monitoring the Future: A
       Continuing Study of the Lifestyles and Values of Youth,” February 1990.

Washington Post, “Dramatic Findings in School Drug Survey,” San Francisco
      Chronicle, February 25, 1991.

The Wine Institute, Table of Commercially Produced Wine Entering Distribution
     Channels in the United States, by Areas Where Produced, 1985--1989.

Wittman, Friedner D., Ph.D., J.W. Grube, and P. Shane, “Survey of Alcohol and
       Other Drug Experiences Among Castro Valley High School Students in 1987
       and 1990,” September 1, 1990.




                                         c-3
